No. 19-329

 

IN THE
Supreme Court of the United States

WINSTON-SALEM INDUSTRIES FOR THE BLIND,

Petitioner,
v.

UNITED STATES OF AMERICA; PDS CONSULTANTS, INC.,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

BRIEF OF NATIONAL ASSOCIATION FOR THE
EMPLOYMENT OF PEOPLE WHO ARE BLIND AS
AMICUS CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,551 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 11, 2019.

Colin Casey Foden

Wilson-Epes Printing Co., Inc.
